HHS/OIG-Audit--"Review of Unfunded Pension Costs of Pennsylvania Blue Shield for Fiscal Years 1988 Through 1991, (A-03-93-00016)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Pennsylvania Blue Shield for Fiscal Years 1988 Through 1991," (A-03-93-00016)
August 13, 1993
Complete
Text of Report is available in PDF format (869 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This presents the results of our review of unfunded pension costs of Pennsylvania Blue Shield (PBS) for Fiscal Years (FYs)
1988 through 1991. The purpose of our review was to determine the funding status of pension costs claimed for Medicare
reimbursement by PBS for Federal FYs 1988 through 1991. The PBS is the Medicare carrier for Pennsylvania, Delaware, New
Jersey, and the District of Columbia. Our review showed that PBS did not make contributions to its pensions plans for the
FYs 1988 through 1991. Contrary to the provisions of Medicare contract, however, PBS charged Medicare for pension costs
totaling $1,299,419 during that period that were unallowable for Medicare reimbursement. This situation was previously
reported in an Office of Inspector General report (A-03-89-02005) in which PBS claimed Medicare reimbursement of $653,516
for unfunded pension costs in FYs 1986 and 1987.